U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Abdul Razak Ali v. Donald J. Trump,
President of the United States, et al.,
S.Ct. No. 20-888

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
28, 2020, and placed on the docket on January 4, 2021. The government’s response is due on
February 3, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 5, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-0888
ALI, ABDUL RAZAK
DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL.

SHAYANA DEVENDRA KADIDAL
CENTER FOR CONSTITIONAL RIGHTS
666 BROADWAY
7TH FLOOR
NEW YORK, NY 10012
212-614-6438
KADIDAL@CCRJUSTICE.ORG

